                                             October 31, 2002




MEMORANDUM TO:                Chairman Meserve



FROM:                         Hubert T. Bell
                              Inspector General


SUBJECT:                      NRC’S REGULATORY OVERSIGHT OVER THE CONTROL OF
                              SPECIAL NUCLEAR MATERIAL AT MILLSTONE UNIT 1
                              (CASE NO. 01-03S)


        Attached is an Office of the Inspector General (OIG), U.S. Nuclear Regulatory

Commission (NRC), Event Inquiry regarding the reported loss of two irradiated fuel rods at the

Millstone Nuclear Power Station Unit 1. This Event Inquiry reviewed the NRC oversight of

Millstone’s accountability program from the late 1970s to the present for special nuclear material

generated by the nuclear power plant.


Attachment: As stated

cc w/attachment:
Commissioner Dicus
Commissioner Diaz
Commissioner McGaffigan
Commissioner Merrifield
W. Travers, EDO
    OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




                 NRC’S REGULATORY OVERSIGHT OVER
              THE CONTROL OF SPECIAL NUCLEAR MATERIAL
                         AT MILLSTONE UNIT 1

                           Case No. 01-03S




_____________________________        __________________________
David A. Timm, Special Agent         Rossana Raspa, Team Leader




                    _____________________________
                            Brian C. Dwyer
                          Assistant Inspector
                        General for Investigations
   NRC’S REGULATORY OVERSIGHT
   OVER THE CONTROL OF SPECIAL
NUCLEAR MATERIAL AT MILLSTONE UNIT 1



   Case No. 01-03S   October 31, 2002
                                                    TABLE OF CONTENTS


                                                                                                                                          Page

BASIS AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DETAILS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


           I.         NRC MC&A Inspection Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

           II.        NRC MC&A Inspection Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

           III.       OIG Review of SNM Inspections at Millstone Unit 1 . . . . . . . . . . . . . . . . . . . . . . . . 8


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


LIST OF ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                                       BASIS AND SCOPE


The Office of the Inspector General (OIG) initiated this Event Inquiry based on public concerns
about the reported loss of two irradiated fuel rods at the Millstone Nuclear Power Station Unit 1.
The current U.S. Nuclear Regulatory Commission (NRC) license holder for Millstone Unit 1 is
Dominion Nuclear Connecticut (DNC). Prior to DNC becoming the U.S. Nuclear Regulatory
Commission (NRC) license holder for Millstone Unit 1 in March 2000, the licensee was
Northeast Nuclear Energy Company. In 2000, as part of licensee efforts to decommission
Millstone Unit 1, DNC initiated reconciliation and verification of the spent fuel maintained in the
spent fuel pool. This process identified that two fuel rods reflected in the former licensee’s
records could not be located. On November 16, 2000, DNC informed the NRC that two
irradiated fuel rods could not be located in the spent fuel pool at Millstone Unit 1. Irradiated fuel
rods contain uranium, plutonium, and other radioactive material and must be strictly accounted
for in accordance with NRC regulations.

This OIG Event Inquiry reviewed NRC oversight of the former and current licensee’s
accountability program for special nuclear materials generated by Millstone Unit 1 from the late
1970s to the present.




                                                  2
                                          BACKGROUND


NRC Requirements To Account for SNM

NRC requires licensees to employ stringent accounting and control procedures over grams of
uranium and plutonium in their possession. Both uranium and plutonium are referred to as
special nuclear material (SNM) in NRC regulations. NRC licensees are required to
administratively and physically control SNM in designated areas known as inventory control
areas, or ICAs. Generally, nuclear power plants have three ICAs. One is for new fuel not yet
used in the reactor, one is for the fuel in the reactor vessel itself, and the third is the spent fuel
pool (SFP) for storage of irradiated, or spent, fuel. Also, due to SFP storage limitations, some
reactor operators have another ICA for dry cask storage of spent fuel.

Prior to 1994, Title 10 of the Code of Federal Regulations (CFR), Part 74, Material Control and
Accounting of Special Nuclear Material, required that each time SNM was received or shipped by
a reactor operator, a Nuclear Material Transfer Report, Department of Energy (DOE)/NRC Form
741 (Form 741), had to be generated to document the transfer of SNM. NRC licensees had to
submit these forms to the U.S. Nuclear Materials Management and Safeguards System
database, which is maintained by DOE. Title 10 CFR, Part 74 also required reactor licensees to
semiannually submit a Nuclear Material Status Report, DOE/NRC Form 742 (Form 742),
reflecting the calculated total SNM inventory on hand as of September 30 and March 31 of each
year. After July 1994, this process became computerized.

Title 10 CFR, Part 70, Subpart G, Special Nuclear Material Control, Records, Reports and
Inspections, establishes NRC requirements and procedures for NRC license holders that
possess spent nuclear fuel. These requirements include procedures for the material control and
accounting of SNM. NRC requires licensees to maintain and follow written procedures to
account for all SNM in their possession. Specifically, NRC requires licensees to conduct a
physical inventory of all SNM in their possession and to reconcile their inventory records with
their physical inventory of SNM every 12 months. In addition, the NRC regulation directs
licensees to maintain a recordkeeping system showing the location of all their SNM maintained
in discrete items or containers. Title 10 CFR, Part 70, Subpart G serves as the basis for NRC to
conduct Material Control & Accounting (MC&A) inspections. During these inspections, NRC
determines whether the licensee is maintaining all required records in accordance with the NRC
regulation and is performing all required reporting.

Nuclear Power Generation at Millstone Unit 1

Millstone Unit 1, a nuclear power plant located in Waterford, CT, was in operation from
October 7, 1970, through November 4, 1995. During this time, the NRC operating license holder
for this plant was Northeast Utilities (NU). When Millstone Unit 1 was in operation, the reactor
vessel normally contained 580 fuel assemblies or bundles. Each assembly contained 49 fuel
elements or rods. The fuel rods, which contained uranium-235 (U-235), were each
.57 inches in diameter and 158 inches long (approximately 13 feet). During the fission process,
U-235 is used, or ‘burned,’ to generate electricity. One byproduct of the fission process is
plutonium (Pu-239 and Pu-241). Various other radioisotopes are also produced as a result of
the fission process and were contained in the fuel rods that had been used in the nuclear

                                                   3
reactor. [NOTE: OIG recognizes that irradiated fuel rods contain uranium and, in much lesser
amounts, plutonium and other radioisotopes. However, this OIG report focuses on NRC
oversight pertaining to Millstone’s accountability for the two missing irradiated fuel rods and the
uranium contained therein.]

Licensee Discovers Two Fuel Rods Are Missing

On November 16, 2000, DNC informed the NRC that it was unable to account for two irradiated
fuel rods that had previously been reported as stored in the Millstone Unit 1 SFP. On January
11, 2001, after licensee efforts at Millstone Unit 1 to verify records and determine the location of
the two unaccounted-for rods failed to locate the rods, DNC submitted a Licensee Event Report
(LER) to NRC reporting that the two irradiated fuel rods were missing. NRC requires licensees
to submit LERs within 60 days after the discovery of a condition that is prohibited by the plant's
technical specifications, for example, the failure of any safety system needed to control the
release of radioactive material. The January 11, 2001, LER disclosed that the two irradiated fuel
rods had not been tracked in the Millstone Unit 1 SNM records. The LER reported that the two
fuel rods, in the year 2000, would have contained 7,732 grams of uranium and 40.2 grams of
plutonium.

The January 2001 LER provided a history of the two missing fuel rods at Millstone Unit 1.
According to the LER, in 1972, due to a failure of condenser tubes, saltwater entered the reactor
coolant system at Millstone Unit 1. The reactor was shut down and a fuel assembly, number
MS-557, was placed in the Millstone Unit 1 SFP. Personnel from General Electric (GE), a
Millstone contractor, disassembled fuel assembly MS-557 which contained 49 irradiated fuel
rods. The 49 rods were placed in seven eight-rod storage containers for temporary storage. In
1974, GE personnel reassembled fuel assembly MS-557 but placed only 47 rods back in the fuel
assembly because two fuel rods were damaged. The two damaged rods that were not returned
to the fuel assembly remained in an eight-rod storage container in the SFP.

OIG learned that Millstone used a system of index cards and schematic drawings, or maps, to
record the location of its SNM inventory. Fuel assembly MS-557 was recorded in the Millstone
Unit 1 SNM inventory control system both in a card file and on an SFP map, but no separate
entry for the two damaged fuel rods was made in the SNM inventory system. Reportedly, in May
1979, a Millstone Unit 1 reactor engineer found the two fuel rods in the eight-rod container.
Assisted by GE personnel, the engineer determined the source of the two rods, created a card
file, and recorded the location of the two fuel rods on an SFP map. The card file identified the
rods by serial number and specified their storage location in the SFP. The May 1979 entry was
the only entry on the card file. The May 1979 SFP map recorded the location of the two fuel rods
and all other items of SNM stored in the SFP. The location of the two rods in the SFP was
recorded on two additional SFP maps, prepared by the licensee in February and April of 1980. In
September 1980, another SFP map was prepared; however, the location of the two rods did not
appear on this or any subsequent SFP maps. During the 2000 reconciliation, the licensee found
the card file for the two fuel rods created by the Millstone Unit 1 reactor engineer in
May 1979 but was unable to locate the two rods.




                                                  4
Licensee and NRC Review Regarding Two Missing Fuel Rods

In October 2001, DNC completed an extensive review to locate the two missing spent fuel rods.
As part of this review, DNC reviewed all of its Forms 741 to determine if there was a record of
the two missing fuel rods being transferred from the facility. DNC failed to locate a record of the
two rods having been transferred but concluded that the low-level radioactive waste (LLRW)
disposal facility at Barnwell, SC, “had a significant opportunity to receive the fuel rods....” DNC
also concluded that there was a low probability that the two rods were still in the SFP at Millstone
Unit 1 or that the rods had inadvertently been shipped to a GE facility in Vallecitos, CA. DNC
also noted there was a small possibility that the rods were shipped to a low-level waste facility in
Richland, WA.

On September 20, 2001, NRC staff issued SECY-01-0175 to inform the NRC Commissioners
about the loss of the two fuel rods, the licensee’s ongoing efforts to locate the rods, and the NRC
staff’s actions relative to the missing fuel rods. This SECY included information concerning
NRC MC&A inspection procedures and advised the Commissioners that MC&A inspection
procedures did not specifically address inspection activities relating to individual fuel rods. In
addition, SECY-01-0175 conveyed information based on discussions with NRC staff who
performed MC&A inspections at reactors 10 years earlier. According to SECY-01-0175, the
inspectors said they would have verified the location of a statistical sample of individual fuel rods
had they been aware that any fuel rods existed outside bundles (fuel assemblies). The NRC
staff also told the Commissioners that they were not able to locate records of MC&A inspections
conducted at Millstone Unit 1.

On February 27, 2002, NRC staff reported the results of a special NRC inspection that reviewed
the licensee’s efforts to locate the missing fuel rods. In this report, NRC staff agreed with DNC
that the most likely location for the two missing rods was the LLRW facility in Barnwell, but the
staff disagreed with the licensee’s conclusion that there was a possibility that the rods had been
shipped to the GE Vallecitos facility. According to the report, NRC staff did not believe that the
GE Vallecitos was a “plausible location.”

On June 25, 2002, NRC took enforcement action against DNC and issued a Notice of Violation
which proposed a fine in the amount of $288,000 for failure to adequately account for SNM
contained in two irradiated fuel rods and for failure to report the missing material to the NRC in a
timely manner.




                                                 5
                                            DETAILS


I. NRC MC&A INSPECTION PROGRAM

History of the MC&A Inspection Program

NRC’s predecessor, the U.S. Atomic Energy Commission (AEC), started the MC&A program in
approximately 1965 to verify SNM inventory information reported to the AEC semiannually by
reactor operators. MC&A inspections conducted by the AEC involved an audit of a power
reactor operator’s records, examination of its physical and documentary procedures used to
account for SNM, and a review of the calculations used to estimate the amount of uranium
expended to generate electricity. At that time, all SNM was owned by the Federal Government
and leased by the AEC to reactor operators. The reactor operators paid the Federal
Government use charges for the uranium they had in their inventories, and they also paid for the
uranium they expended to generate electricity.

After NRC was established by the Energy Reorganization Act of 1974, it assumed responsibility
for regulating the civilian uses of nuclear materials. The NRC MC&A inspection program was
initially administered in Atlanta, GA, and later transferred to the individual NRC regional offices
where it remained until approximately 1988. In 1988, MC&A inspection program responsibilities
were transferred from the NRC Regional Offices to the NRC Office of Nuclear Reactor
Regulation (NRR). However, during the late 1980s, the NRC assembled a task force to
reformulate the NRC inspection program for nuclear power plants based on a risk-informed
approach. The head of the task force told OIG that the issues covered under the MC&A program
were not considered significant risk factors. As a result, routine MC&A inspections did not
become part of the new risk-informed reactor oversight program and are now performed only in
response to specific events. According to a senior NRR manager, NRC has not conducted any
routine MC&A inspections at power plants since 1988. Appendix C, “Special and Infrequently
Performed Inspections,” of the current NRC Inspection Manual, dated March 6, 2001, identifies
MC&A inspections as being “performed only when authorized by the Regional Administrator after
a review and assessment of plant events or conditions.”

NRC MC&A Inspection Procedures

The NRC procedures in effect (described in NRC Inspection Procedure 85102B) when routine
MC&A inspections were conducted (prior to 1988) required NRC regional inspectors to ensure
that licensees conducted required physical inventories. These procedures required NRC
inspectors to verify the total number of irradiated fuel assemblies, their serial numbers, and other
supporting documentation. The inspectors were required to use source documents, internal
card files, log books, and any other licensee records to verify the identification, quantity, and
location of SNM. The inspection procedures also required inspectors to (1) verify that the
licensee maintained and followed written procedures to control and account for all items of SNM
and (2) examine licensee records to ensure that the recordkeeping system described the
current location, quantity, and identity of all items containing SNM.




                                                 6
OIG learned that reconstitution of fuel assemblies was practiced by reactor operators during the
late 1970s and 1980s. Reconstitution involved the replacement of individual fuel rods in a fuel
assembly, a practice that would have created conditions for individual irradiated fuel rods to be
present in a power plant’s SFP. OIG learned that one reason a reactor operator may have
reconstituted a fuel assembly was to replace a leaking fuel rod.

The MC&A inspection procedures referenced NRC Regulatory Guide 5.29, “Nuclear Material
Control Systems for Nuclear Power Plants,” which provided guidance to licensees about
controlling and accounting for SNM. Regulatory Guide 5.29 adopted the standards identified in
the American National Standards Institute (ANSI) standard number N15.8-1974 for reactor
operators to control and account for SNM. ANSI standard N15.8-1974 specifically mentioned
that SNM contained in isolated fuel rods should be separately identified in all material control
records as follows:

       “6. Internal Control
       6.1 Unit of Control. The basic unit of control for nuclear material shall be the nuclear
       fuel assembly. Each nuclear fuel assembly shall be identified in the material control
       records by its serial number and location. Nuclear material contained in fuel elements,
       not part of an assembly, shall be separately identified on all material control records.”

ANSI standard N15.8-1974 also stated that a total count or inventory of irradiated fuel should
include both fuel assemblies and fuel rods and should be performed at least every six months.
Further, ANSI recommended that material control records be reconciled to physical inventories.

II. NRC MC&A INSPECTION PRACTICES

The NRC inspectors who performed MC&A inspections during the 1970s and 1980s
characterized these inspections to OIG as audits of the licensee’s records. According to the
NRC inspectors and management staff involved with the MC&A inspection program, these
inspections typically consisted of a review of a licensee’s records to ensure that the licensee
was maintaining an adequate system of controls to account for all SNM in its possession. The
licensee’s SNM shipping and receiving records were also reviewed. After inspecting a
licensee’s SNM recordkeeping system, NRC inspectors conducted a statistical sampling of all
licensee SNM to verify that material contained in a licensee’s SNM records was physically
located as described in its records. Each fuel assembly bore a unique serial number on the top
of the bundle. The licensee’s schematic drawings of the SFP and the reactor core reflected the
unique serial numbers of the fuel bundles and their specific location in each of these locations.
Once an irradiated fuel assembly was removed from the reactor core, it was placed in the SFP.
During inspections, NRC inspectors verified the serial numbers of the fuel assemblies in the
SFP. According to the NRC staff, to verify the total inventory amount or balance of SNM for
which a licensee was responsible, the inspectors began the current inspection by using the last
audited balance of SNM from the NRC’s previous inspection report. The staff likened this to
balancing a checkbook and beginning with the last verified balance amount.




                                                7
According to one NRC inspector, the first thing he did to prepare for an MC&A inspection was to
review the details of the previous MC&A inspection. Another inspector told OIG that he normally
obtained a printout from the U.S. Nuclear Materials Management and Safeguards System
(NMMSS) database and consulted the previous MC&A inspection to prepare for an MC&A
inspection. Based on the last audited balance, inspectors then reviewed records of receipt and
shipment of SNM (Form 741) and verified the licensee’s calculations of the amount of SNM that
had been expended to generate electricity. Using this approach, the inspectors arrived at a new
balance figure, which they then compared to the licensee’s own SNM inventory balance record
(Form 742).

III. OIG REVIEW OF SNM INSPECTIONS AT MILLSTONE UNIT 1

OIG found that the NRC staff conducted one routine MC&A inspection at Millstone Unit 1 in 1978
and one in 1982. OIG also found that in 1980, the staff conducted an inspection in response to
an allegation that spent fuel rods from the Pilgrim Nuclear Power Station Unit 1 and Millstone
Units 1 and 2 had been buried illegally at the Barnwell LLRW facility in South Carolina. In
reviewing these inspection reports, OIG noted that they did not mention any inventory review to
ensure that the licensee was accounting for individual fuel rods as recommended in the ANSI
standard for control and accounting for SNM. A summary of the three inspection reports is
provided below.

1978 MC&A Inspection 50-245/78-16 at Millstone Unit 1

OIG learned that NRC Region I staff conducted a routine, unannounced MC&A inspection at
Millstone Unit 1 from May 9 through May 11, 1978, covering the period from January 1, 1976,
through March 31, 1978. The inspection report (50-245/78-16) indicated that the staff did not find
any items of non-compliance with regulatory requirements. The report indicated that the
inspection team reviewed Millstone Unit 1 procedures for control and accountability of SNM and
found them to be acceptable. The inspection report also reflected that the licensee maintained a
card file for all fuel assemblies and that the spent fuel pool schematic was current. The
inspection report did not indicate whether SNM items other than fuel assemblies were controlled
in the card file system. According to the inspection report, the inspectors performed a piece
count of the fuel in the SFP. The report also indicated that selected spent fuel assemblies were
compared to the SFP schematic and the card file for position accuracy. Also, the reactor core
schematic for the fuel assembly serial numbers was compared to the card file and internal
material transfer forms for position accuracy. OIG noted that this inspection report did not
identify the fact that the licensee had no card file record for the two separate fuel elements.

In addition, the Region I inspection team verified procedures used by Millstone Unit 1 to calculate
the amount of uranium expended to generate electricity, known as the ‘burn rate’ and determined
that the licensee’s ‘burn rate’ figure closely paralleled its own computation. However, OIG
learned that the ending audited balance for this inspection (March 31, 1978), was not consistent
with the balance in the NMMSS database for enriched uranium element. Specific SNM balance
figures relating to the 1978 inspection report are included in the following table:




                                                 8
                                 1978 Inspection SNM Balance
                                  Figures for Millstone Unit 1
   Beginning Balance Enriched Uranium Element                   182,078,418 grams
                 January 1, 1976

    Ending Balance Enriched Uranium Element                     225,782,154 grams
       March 31, 1978 (Audited by NRC)

   NMMSS Database Enriched Uranium Element                      226,100,386 grams
        Balance as of March 31, 1978

1982 MC&A Inspection 50-245/82-18 at Millstone Unit 1

The next routine NRC MC&A inspection at Millstone Unit 1 to verify SNM inventory was
performed on September 29 through September 30, 1982, by a Region I inspector. The
inspection period covered April 1, 1978 (one day after the ending date of the 1978 inspection),
through March 31, 1982. The inspection report (50-245/82-18) reflected that the inspector
reviewed the licensee’s SNM control and accounting practices and found them to be in
compliance with NRC regulations and that no items of non-compliance were identified.
According to the inspection report, the inspector also reviewed facility organization and
operation, shipping and receiving, storage and internal control, physical inventory, and records
and reports. The inspection report did not reflect whether the inspector reviewed fuel
assemblies and fuel rods as part of the inventory. Also, while the inspector reviewed the
licensee’s physical inventory records and audited all material status reports (Forms 741), OIG
found no mention in the inspection report regarding a comparison of card file records to either
the actual presence of the fuel in the SFP or to the SFP schematic.

In addition, OIG noted that the September 1982 NRC inspection report reflected a beginning
enriched uranium element balance that was not the same as the ending balance determined by
the 1978 MC&A inspection at Millstone Unit 1, even though the 1982 inspection period began the
day after the ending date of the 1978 inspection. The NRC inspector who performed the 1982
inspection told OIG that he used an SNM balance provided by the licensee for the beginning
balance of his inspection. OIG learned that this was inconsistent with the inspection practices
used by MC&A inspectors during this time period. The MC&A inspection practice called for the
inspector to use the ending SNM balance reflected in the 1978 MC&A inspection. Specific SNM
balance figures relating to the 1982 inspection report are included in the following table:




                                                9
                                 1982 Inspection SNM Balance
                                  Figures for Millstone Unit 1
   Beginning Balance Enriched Uranium Element                    225,775,833 grams
       April 1, 1978 (Used by NRC Inspector)

    Ending Balance Enriched Uranium Element                      262,010,218 grams
       March 31, 1982 (Audited by NRC)

   NMMSS Database Enriched Uranium Element                       262,491,023 grams
        Balance as of March 31, 1982


1980 Inspection Regarding Allegation of Illegal Dumping of Spent Fuel at Barnwell

OIG learned that on March 4, 1980, a Washington Post article, “S.C. Officials Probe Allegations
of Illegal Dumping of A-Waste,” reported an allegation that spent fuel rods from the Pilgrim
Nuclear Power Station Unit 1 and Millstone Units 1 and 2 had been buried illegally at the Barnwell
low-level waste facility in South Carolina. The allegation provided specifics about the number of
illegal spent fuel shipments and the type of shipping containers used for the shipments.

In response to the allegation, NRC conducted an investigation of the MC&A program at Pilgrim.
The NRC investigative report (50-293/80-12) stated, “Investigators, independent of licensee
records, developed a book balance of all SNM units (fuel assemblies, fuel rods and fuel loading
chambers) that should have been on the Pilgrim Nuclear Power Station Unit 1 site since
March 5, 1980. This balance included shipments and receipts of SNM since prior to initial
operation of the reactor.” The investigative report looked specifically at when Pilgrim Unit 1 had
individual fuel rods in inventory, receipt of individual fuel rods from GE (its fuel manufacturer),
and shipment of irradiated fuel rods to GE. The investigative report stated that another
investigation was conducted to determine whether spent fuel had been illegally shipped from
Millstone Units 1 and 2. This investigation was described in NRC Inspection Report 50-245/80-
04 and 50-336/80-03.

OIG reviewed the Millstone inspection report (Combined Inspection 50-245/80-04 and
50-336/80-03) referenced in the Pilgrim investigation and noted that the Millstone inspection was
a routine monthly inspection for March 1980 and not specifically focused on SNM accountability.
The inspection report reflected that two NRC resident inspectors at Millstone Units 1 and 2
reviewed radioactive material shipment records. According to the inspection report, the resident
inspectors found no items of non-compliance in the radioactive material shipment records.
However, OIG’s review of the report determined that it did not reference any review of the
licensee’s SNM card file records or whether the licensee maintained individual fuel rods at
Millstone. Also, this inspection did not include a review of enriched uranium element inventory
balances; consequently, there is no NRC verification of the licensee’s SNM inventory at this
time. OIG noted that at the time of the March 1980 inspection of Millstone Units 1 and 2, the
Millstone Unit 1 reactor engineer had created (in May 1979), a record for the two irradiated fuel
rods in the SNM card file system, and the location of these two rods was marked on the SFP
schematic dated February 26, 1980. Despite the allegation concerning illegal dumping of spent
fuel, OIG found no documentation indicating that NRC physically verified that the rods were
actually in the SFP at that time.

                                                 10
                                          FINDINGS


OIG found that the methodology used by the NRC inspector who performed the September 1982
MC&A inspection at Millstone Unit 1 was flawed. The accepted practice when conducting an
MC&A inspection was for the NRC inspector to begin the inventory with the audited SNM ending
balance from the last MC&A inspection. However, the inspector who conducted the 1982 NRC
inspection began with a licensee-provided SNM balance that differed from the audited ending
balance from the preceding 1978 MC&A inspection at Millstone Unit 1. Also, the beginning SNM
balance used for the 1982 MC&A inspection was inconsistent with the NMMSS database
balance for the same time period.

OIG also determined that the NRC staff did not take advantage of several opportunities to
establish an accurate account of the quantity of enriched uranium element maintained by
Millstone Unit 1 between 1978 and 1982. These opportunities included the NRC MC&A
inspections in 1978 and 1982 and the 1980 NRC inspection activities conducted in response to
an allegation that fuel rods had been illegally shipped to Barnwell, SC. The NRC inspection
procedures in effect during this time period included a reference to NRC Regulatory Guide 5.29,
which adopted the ANSI standards for control and accounting of SNM. The ANSI standards
specify that licensees should separately account for fuel elements that were not part of a fuel
assembly. However, OIG found that the NRC inspection reports did not document any NRC
actions to verify the presence of individual fuel rods to ensure the licensee’s records were
accurate.

OIG found that since 1988, MC&A inspections of nuclear power reactors are no longer
performed as part of the baseline or supplemental inspections at nuclear power plants. As a
result of the risk-informed regulatory approach adopted by the NRC, MC&A inspections are now
categorized as special or infrequently performed inspections and are implemented only for
special situations based on plant events or conditions. Consequently, because routine MC&A
inspections are no longer performed at nuclear power reactors, there is no systematic
verification of licensee inventories of SNM conducted by the NRC.




                                              11
                              LIST OF ACRONYMS


AEC     U.S. Atomic Energy Commission

ANSI    American National Standards Institute

CFR     Code of Federal Regulations

DNC     Dominion Nuclear Connecticut

DOE     U.S. Department of Energy

GE      General Electric

ICAs    inventory control areas

LER     Licensee Event Report

LLRW    low-level radioactive waste

MC&A    Material Control & Accounting

NMMSS   U.S. Nuclear Materials Management and Safeguards System

NRC     U.S. Nuclear Regulatory Commission

NRR     Office of Nuclear Reactor Regulation

NU      Northeast Utilities

OIG     Office of the Inspector General

SFP     spent fuel pool

SNM     special nuclear material




                                          12
